No:
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
MICKEY PUBIEN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Mickey Pubien, pursuant to SUP CT. R. 39.1, respectfully moves
for leave to file the accompanying petition for writ of certiorari in the Supreme Court
of the United States without payment of costs and to proceed in forma pauperis.
Mr. Pubien was previously found financially unable to obtain counsel and the
Federal Public Defender of the Southern District of Florida was appointed to
represent Mr. Pubien pursuant to 18 U.S.C. 3006A. Therefore, in reliance upon
RULE 39.1 and 3006A(d)(6), Mr. Pubien has not attached the affidavit which would
otherwise be required by 28 U.S.C. 1746.
MICHAEL CARUSO
FEDERAL PUBLIC DEFENDER

Fort Lauderdale, Florida
November 6, 2020

By:______________________________
Juan J. Michelen
Assistant Federal Public Defender
Florida Bar no. 92901
1 East Broward Blvd., Suite 1100
Fort Lauderdale, Florida 33301-1100
Telephone No. (954) 356-7436

